TN

COCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-592
COUNTY COMMISSIONERS OF
CARROLL COUNTY, MARYLAND,
Petitioner,
v.
MARYLAND DEPARTMENT
OF THE ENVIRONMENT,
Respondent.
AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
BRIAN E. FROSH.
Attorney General of Maryland
ADAM D. SNYDER*
KUNLE ADEYEMO
Assistant Attorneys General
200 Saint Paul Place, 20th Floor
Baltimore, Maryland 21202
asnyder@oag.state.md.us
(410) 576-6398

Attorneys for Respondent

*Counsel of Record

Subscribed and sworn to before me this 23rd day of January, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LG ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39162

 

 
SERVICE LIST

Christopher D. Pomeroy
Counsel of Record

Justin W. Curtis

Lisa M. Ochsenhirt

AquaLaw PLC

6S. 5th Street

Richmond, Virginia 23219

(804) 716-9021

chris@aqualaw.com

Counsel for Petitioner
